              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




        Management of Equipment in
           Capitol Heights, MD

        Management Advisory Report




                                        November 20, 2013
Report Number HR-MA-14-001
                                                                    November 20, 2013

                                                        Management of Equipment in
                                                               Capitol Heights, MD

                                                        Report Number HR-MA-14-001




BACKGROUND:
H                H




The U.S. Postal Service’s Southern           dumpster. Additionally, the Washington
Maryland Processing and Distribution         NDC stored 12 container loaders
Center (P&DC) and Washington                 outdoors that were not adequately
Network Distribution Center (NDC) are        protected. These conditions occurred
co-located in Capitol Heights, MD. Both      because policies and procedures for
facilities stored mail transport equipment   equipment storage were not clear. Also,
(MTE) and mail processing equipment          although management was aware of the
outside. The MTE included pallets, all-      requirements for handling damaged and
purpose containers, and heavy duty,          excess equipment, they did not ensure
over-the-road containers. The mail           compliance with policies and
processing equipment included                procedures.
container loaders, which are used to
load mail from a variety of containers       Finally, improper outdoor MTE storage
onto other mail processing equipment.        poses an environmental risk of
                                             discharging rust and other materials into
Our objective was to evaluate                storm water. We estimate assets valued
compliance with equipment handling           at $1.3 million were at risk due to
and use policies and procedures at the       improper storage and handling.
Southern Maryland P&DC and the
Washington NDC and the environmental         WHAT THE OIG RECOMMENDED:
                                             H                                      H




effects of outside storage of equipment.     We recommended management
                                             establish procedures to comply with the
WHAT THE OIG FOUND:
H                         H                  revised MTE policy when implemented
There are opportunities to improve MTE       and reinforce proper MTE handling
and mail processing equipment storage        guidelines. We also recommended
and use procedures at the Southern           management ensure MTE is used only
Maryland P&DC and Washington NDC.            to transport mail and ensure
The facilities stored 1,389 pieces of        maintenance and operations managers
unsheltered MTE outdoors for a               comply with policies and procedures for
prolonged period, exposing the               disposing of damaged or excess MTE.
equipment to potential weather damage,       Finally, we recommended management
theft, and improper use. We observed         replace coverings on existing container
MTE containing fire extinguishers,           loaders stored outside, and establish
machine parts, rubber floor mats, debris,    procedures to monitor the condition of
and other MTE. We also observed              current and future mail processing
damaged or excess equipment that             equipment stored outside.
were not properly identified and sent for    Link to review the entire report
repair, including pallets discarded in the
                                             H                                  H
November 20, 2013

MEMORANDUM FOR:
0B                        KRISTIN A. SEAVER
                          VICE PRESIDENT, CAPITAL METRO AREA
                          1B




                          MARK D. HOGAN
                          MANAGER, OPERATIONS SUPPORT
                          CAPITAL METRO AREA




FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:
2B                        Management Advisory Report – Management of Equipment
                          in Capitol Heights, MD (Report Number HR-MA-14-001)

This report presents the results of our review of the U.S. Postal Service's Management
of Equipment in Capitol Heights, MD, specifically at the Southern Maryland Processing
and Distribution Center and Washington Network Distribution Center (Project Number
13YG026HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director, Human
Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Management of Equipment in Capitol Heights, MD                                                                HR-MA-14-001




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Safeguarding and Use of Mail Transport Equipment ....................................................... 1

Damaged and Excess Mail Transport Equipment ........................................................... 4

Safeguarding and Use of Mail Processing Equipment .................................................... 7

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Other Impacts ........................................................................................... 13

Appendix C: Management’s Comments ........................................................................ 14
Management of Equipment in Capitol Heights, MD                                                   HR-MA-14-001



Introduction

This report represents the results of our self-initiated review of the management of mail
transport equipment (MTE) and mail processing equipment (MPE) in Capitol
Heights, MD. The equipment is co-located at the Southern Maryland Processing and
Distribution Center (P&DC) and the Washington Network Distribution Center (NDC)
(Project Number 13YG026HR000). Our objective was to evaluate compliance with MTE
and MPE policies and procedures at the affected facilities and the environmental effects
of outside storage of MTE and MPE. See Appendix A for additional information about
                                                       H              H




this audit.

During site visits, we observed a large quantity of unsheltered MTE and MPE that had
been stored outside on the Eastern yard of the facilities. The MTE we observed
included pallets, all-purpose containers (APCs), and heavy duty, over-the-road (OTR)
containers. The MPE we observed included container loaders. Storing MTE and MPE in
this manner exposes the equipment to weather impacts, including sun, rain, and snow.

Conclusion

Personnel at the Southern Maryland P&DC and the Washington NDC did not always
comply with MTE and MPE policies and procedures. Specifically, they did not always
safeguard or properly use MTE and did not always promptly identify and send damaged
or excess MTE to the material transport equipment service center (MTESC) for repair.
The Washington NDC also stored container loaders outdoors where they were not
adequately protected. Finally, improper outdoor MTE storage poses an environmental
risk of discharging rust and other materials into storm water.

Safeguarding and Use of Mail Transport Equipment

Personnel did not always safeguard or properly use MTE. Specifically, Southern
Maryland P&DC and Washington NDC personnel stored unsheltered MTE outdoors,
exposing the equipment to potential weather damage and other improper use.
Additionally, they improperly used some of the MTE to store other MTE and debris.

Through a physical inventory conducted on June 27, 2013, we accounted for
1,389 pieces of MTE—including APCs, OTR containers, pallets, and other MTE—stored
in the Eastern yard of the facilities. We found indications that outdoor storage at these
facilities had been ongoing for a prolonged period. For example, four of the five
environmental compliance reviews (ECRs) 1 conducted at the Washington NDC
                                                           FF   FF




between fiscal years (FYs) 2007 and 2012 cited improper outdoor storage of equipment,
such as mail containers, heavy duty OTRs, and pallets. Further, we observed that some

1
 The ECR program provides an internal process to periodically assess high-risk facilities to determine compliance
with applicable federal, state, and local regulations and Postal Service policies.

                                                                1
Management of Equipment in Capitol Heights, MD                                                    HR-MA-14-001



items, such as flat tubs, general mail containers, and wire containers showed rust (see
Figure 1) and appeared to have been subjected to extended weather exposure.
Additionally, the mail tubs in Figure 2 crumbled at physical touch. A U.S. Postal Service
mechanical engineer indicated it would take years of exposure to deteriorate the tubs to
this degree.

            Figure 1. Rusted APC                               Figure 2. Deteriorated Plastic Tub




Source: U.S. Postal Service Office of Inspector General       Source: OIG photograph taken June 27, 2013.
(OIG) photograph taken June 27, 2013.

Regarding improper use, we observed numerous pieces of MTE containing fire
extinguishers, machine parts, rubber floor mats, debris, and other MTE (see Figures 3
and 4).

          Figure 3. Storing Parts                                    Figure 4. Storing Debris




Source: OIG photograph taken June 27, 2013.                   Source: OIG photograph taken June 27, 2013.




                                                          2
Management of Equipment in Capitol Heights, MD                                                       HR-MA-14-001



Current Postal Service policy states that operations managers and Postal Service
managers responsible for mail processing and delivery operations must ensure that
MTE is used "properly, efficiently, and safely.” 2 It also indicates that MTE may be used
                                                             FF        FF




only to transport mail and that any other use (storing or transporting records, equipment,
waste, or other MTE) is specifically prohibited. 3                FF




MTE was not always safeguarded and properly used because policies and procedures
are not clear regarding proper handling of MTE. Specifically, Postal Service policy does
not explicitly state that MTE should not be stored outside, exposed to the weather, or
that it is the facility manager's responsibility to safeguard MTE. However, headquarters
officials informed us that they are revising current policy, expected in January 2014, to
explicitly state that MTE should be stored inside buildings or trailers, protected from
theft and weather (sun, rain, and snow).

Unsheltered MTE stored outside is at risk of damage caused by exposure to weather
impacts, including sun, rain, and snow. Although MTE is generally designed with
relative durability, it is not impervious to weather. Various parts are vulnerable, such as
plastic linings, screws, hinges, and cables. For example, APCs, particularly those with
plastic lining, will deteriorate after extended exposure to the weather. OTR containers,
although primarily made of aluminum and thus not susceptible to rust, contain several
parts that are susceptible to weather impacts. OTR container parts such as brakes, load
door latches, and wheels experience accelerated deterioration when exposed to
weather.4 However, Capital Metro Area management maintain that outdoor storage is
not harmful to OTR containers, which have traditionally been stored outside.

Additionally, outdoor MTE storage poses an environmental risk of discharging rust and
other materials into storm water. MTE, such as the APCs, poses a risk of discharging
rust runoff into storm water when the APCs are staged near storm drains (see Figure 5).
According to the U.S. Environmental Protection Agency, heavy metals are toxic to
aquatic life and can contaminate ground water. Also, other hazardous materials stored
inside the MTE could discharge into storm water.




2
  Postal Service Handbook PO-502, Container Methods, paragraph 136, dated September 1992; and the Postal
Operations Manual (POM), Issue 9, paragraph 589, dated July 2002, updated with Postal Bulletin revisions through
April 18, 2013.
3
  POM, Issue 9, paragraph 581.2.
4
  A Postal Service mechanical engineer indicated that the normal life span of parts on the OTR containers would be
about 10 years in an indoor environment but only 2 to 4 years when subjected to the outdoor environment.

                                                         3
Management of Equipment in Capitol Heights, MD                                                     HR-MA-14-001



                             Figure 5. Rusting MTE Near Storm Drain




        Source: OIG photograph taken June 13, 2013.

Based on the replacement costs associated with the MTE we physically inventoried on
June 27, 2013, we estimated the value of the assets at $1.03 million. See Appendix B           H




for our calculation of assets at risk.

During the course of our review, Washington NDC management depleted the excess
APCs stored outside by using them for the High Speed Tray Sorter (HSTS) operation. 5                        FF   F




Also, Washington NDC management indicated that before our review they initiated a
project to move or properly dispose all items that should not be stored in the Eastern
yard by September 2013. As of August 20, 2013, the Washington NDC had made
significant progress towards completing that project.

Damaged and Excess Mail Transport Equipment

Personnel at the Southern Maryland P&DC and Washington NDC did not always
promptly identify and send damaged or excess MTE to the MTESC for repair. We
identified several damaged pieces of equipment that were not identified as such, as
depicted in Figures 6 and 7.




5
 For its HSTS operation, the Washington NDC normally uses another type of MTE called tri-walls, which are
containers made of cardboard.

                                                        4
Management of Equipment in Capitol Heights, MD                                           HR-MA-14-001




       Figure 6. Broken MTE                                  Figure 7. Broken MTE




Source: OIG photograph taken June 13, 2013.          Source: OIG photograph taken June 13, 2013.


We also found pallets that had been discarded in the dumpster, as depicted in Figures 8
and 9.

     Figure 8. Pallet in Dumpster                      Figure 9. Pallets in Dumpster




Source: OIG photograph taken June 27, 2013.          Source: OIG photograph taken June 27, 2013.




                                                 5
Management of Equipment in Capitol Heights, MD                                 HR-MA-14-001



Current Postal Service policy states that all unsafe or unserviceable equipment should
be red tagged by attaching Postal Service Form 4707, Out of Order (tag), on the
equipment. Red-tagged equipment must be removed from service and dispatched
without delay to the appropriate repair center. 6 Also, other policy documents issued by
                                                           FF   FF




the headquarters MTE team indicate that MTE should not be sold, discarded, or
recycled at facilities but should be sent to the MTESC for proper handling. The
manager, headquarters MTE, stated that in FY 2012 the Postal Service conducted an
information campaign to stop the misuse and abuse of MTE. One of the goals of the
campaign was to discourage facilities from discarding MTE in the trash. Figure 10
depicts a poster distributed by headquarters to area and district officials in FY 2012.

                                      Figure 10. MTE Policy Poster




                               Source: Postal Service Headquarters MTE team.

Facility management officials were aware of the damaged equipment and of the policies
regarding handling damaged or excess equipment. Further, they acknowledged their
noncompliance with the policies and procedures for sending damaged or excess
equipment to the MTESC.

MTE inventory shortages could result if damaged or excess MTE is not immediately
dispatched to the MTESC for repair and redistribution. More importantly, there are
safety concerns because untagged, unserviceable equipment could contribute to
employees being injured.


6
    POM, Issue 9, paragraph 583.11.

                                                       6
Management of Equipment in Capitol Heights, MD                                                 HR-MA-14-001



Safeguarding and Use of Mail Processing Equipment

The Washington NDC also stored unsheltered MPE outdoors. During the physical
inventory we conducted on June 27, 2013, we identified 12 container loaders that were
not adequately protected. The Washington NDC received the container loaders from
another facility and stored them outdoors due to space constraints resulting from
remodeling and reconfiguration efforts ongoing at the facility. Maintenance management
indicated the loaders were covered with tarps at one time; however, as depicted in
Figures 11 and 12, we found the tarps had deteriorated and management had not
monitored or replaced them.

  Figure 11. Uncovered Loader                      Figure 12. Uncovered Loaders




Source: OIG photograph taken June 13, 2013.      Source: OIG photograph taken June 13, 2013.




                                                    7
Management of Equipment in Capitol Heights, MD                                       HR-MA-14-001



Postal Service policy states that all Postal Service employees are responsible for
safeguarding all Postal Service material in their custody. It further indicates the
Postal Service system depends on the responsible actions of each individual to care for
and safeguard material under his or her control.7 Similar to MTE, this policy does not
explicitly state that MPE should not be stored outside exposed to the weather. However,
best business practices suggest that MPE should be protected from theft, improper
cannibalization, and weather; and responsible actions could include properly protecting
the container loaders.

Extended outdoor storage exposes the container loaders to weather, which could cause
damage, particularly to electrical components. Based on the median cost of all container
loaders purchased between January 1, 1995, and September 30, 2008, we valued
these assets at $284,544. See Appendix B for our calculation of assets at risk.
                                         H             H




Recommendations

We recommend the vice president, Capital Metro Area, in coordination with the Capital
Metro Area manager, Operations Support:

1. Establish procedures to comply with the revised mail transportation equipment policy
   when implemented.

2. Reinforce proper mail transportation equipment handling guidelines with
   maintenance and operations managers at the Southern Maryland Processing and
   Distribution Center and Washington Network Distribution Center and ensure mail
   transportation equipment is used only to transport mail.

3. Ensure maintenance and operations managers at the Southern Maryland
   Processing and Distribution Center and Washington Network Distribution Center
   comply with policies and procedures for disposing of damaged or excess mail
   transportation equipment.

4. Replace coverings on existing container loaders stored outside and establish
   procedures to monitor the condition of current and future mail processing equipment
   stored outside.

Management’s Comments

Management generally agreed with the findings and recommendations in the report.
They agreed there are opportunities to improve both MTE and MPE handling and to
eliminate misuse at the Capitol Heights facilities. Management also agreed that the
processes for properly identifying and returning defective MTE for repair were lacking,
and that some of the equipment staged in the yard poses an environmental risk as a
result of storm water contamination. They stated the local management team was
aware of and had a project plan to rectify these issues.
7
    Postal Service Handbook AS-701, Material Management, Chapter 1, paragraph 129.

                                                           8
Management of Equipment in Capitol Heights, MD                                HR-MA-14-001



Regarding recommendation 1, management stated that once the new policy is released
they will evaluate it and incorporate it into their existing policies and procedures. They
targeted implementation of the new policy for the end of December 2013. Regarding
recommendation 2, management will issue facility-wide service talks to all employees
on proper MTE handling specifically referencing the policy restricting MTE use to
transporting mail only. They plan to complete those talks by November 30, 2013.
Regarding recommendation 3, they are presently conducting weekly yard inspections to
monitor improper staging or disposal of MTE in the yard (see Attachment 1 for picture
from recent inspection) and those inspections will be ongoing. Regarding
recommendation 4, management purchased new covers for the container loaders and
deployed them in September (see Attachment 2). They also plan to clear out the
existing maintenance building to make room for the loaders, targeted for completion by
November 30, 2013.

Management did not agree with the count and value of the assets at risk calculation,
because they estimated that most of the unsheltered MTE staged in the yard were OTR
containers, which based on longstanding practice are not at risk from outdoor storage.
Management also stated there were mitigating circumstances explaining why APCs
were temporarily staged in the yard. Specifically, they stated the Washington NDC
assisted the Merrifield P&DC with a project that resulted in excess APCs that exceeded
local demand as well as transportation’s ability to reposition them to other sites. As a
result, they stored them outside. See Appendix C for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding our calculation of assets at risk, our report acknowledged management’s
belief that outdoor storage is not harmful to OTR containers, which have traditionally
been stored outside. However, we continue to agree with a Postal Service mechanical
engineer’s opinion that the normal life span of parts on the OTR containers is greatly
diminished when subjected to the outdoor environment. We acknowledge the short-term
need to store excess APCs outside and management’s efforts to remove them from the
yard upon completion of the project.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 9
Management of Equipment in Capitol Heights, MD                                                            HR-MA-14-001



                                Appendix A: Additional Information

Background

On June 5, 13, and 27, 2013, we visited the co-located Southern Maryland P&DC and
Washington NDC and observed a large quantity of MTE, along with MPE, 8 sitting                  FF   FF




uncovered in the Eastern yard adjacent to the facilities.

MTE consists of various types of containers used to hold mail during processing and
transportation within or between Postal Service facilities, its contractors, mailers, and
other external customers. MTE includes plastic tubs, trays, sacks, and equipment
referred to as rolling stock. 9 In FY 2012 the Postal Service purchased about
                                  FF   FF




$106 million in new MTE.

Generally, the useful life of MTE will vary considerably based on type and some types of
MTE, such as rolling stock, can be in service for as long as 20 years. Individual MTE
items cost the Postal Service as much as $1,400 and are expensed when purchased.
The Postal Service incurred more than $2 million in associated MTE repair costs
between the beginning of FY 2011 and June of FY 2013.

While conducting our site visit on June 13, 2013, we were informed that an ECR
conducted at the facilities in April 2013 included a finding related to uncovered scrap
metals from equipment located outside near storm drains at the Washington NDC. In
addition, four of the six ECRs conducted between FYs 2007 and 2013 included similar
findings in which various pieces of equipment, such as APCs, OTR containers, and
pallets, had been stored in that same location outside the NDC. The report for the ECR
conducted at this facility in FY 2009 indicated that traces of oil and other potential
chemicals were found leaking from the equipment.

Objective, Scope, and Methodology

Our objective was to evaluate compliance with MTE and MPE handling and storage
policies and procedures at the Southern Maryland P&DC and the Washington NDC and
the environmental effects of outside storage on MTE and MPE.

The scope of the review covered the current inventory of MTE and MPE stored outdoors
on the Eastern yard of the co-located Southern Maryland P&DC and Washington NDC.
To assess the nature of storage and handling procedures and the current condition of
that MTE and MPE, we relied on direct observations we made on June 5, 13, and
27, 2013.




8
 The MPE included container loaders that are used to load mail from a variety of containers onto other MPE.
9
 Rolling stock refers to equipment such as hampers, general purpose mail containers, Eastern region mail
containers, and heavy duty OTR containers, or equipment with wheels.

                                                        10
Management of Equipment in Capitol Heights, MD                                HR-MA-14-001



To accomplish our objective, we:

   Took photographs and conducted a physical inventory count of the MTE and MPE
    stored outside the Southern Maryland P&DC and Washington NDC and obtained
    and reviewed pricing information for MTE and MPE to determine applicable
    replacement values.

   Identified and reviewed current Postal Service policies and procedures regarding
    proper MTE and MPE handling and use and interviewed responsible Postal Service
    Operations officials.

   Interviewed officials at Postal Service Engineering Material Handling, the Office of
    Sustainability, and the Maryland Department of the Environment to determine the
    impact of weather exposure on MTE and the environmental impact of outdoor MTE
    and MPE storage.

We conducted this review from June through November 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on September 3 and October 21, 2013, and included their comments
where appropriate.

We did not rely on any computer-generated data to support our conclusions. Therefore,
we did not assess the reliability of any computer-generated data for the purposes of this
report.




                                                 11
    Management of Equipment in Capitol Heights, MD                                HR-MA-14-001



    Prior Audit Coverage

                                                            Final       Monetary
                                                           Report        Impact
         Report Title            Report Number               Date     (in millions)
Mail Transport Equipment –         NL-AR-11-006
                                     H                    9/23/2011       None
Needs, Distribution, and Use
Report Results:
There was an imbalance of MTE rolling stock in the network, with some NDCs
having excess rolling stock and other centers having a shortage. This occurred, in
part, because Postal Service Headquarters did not perform a comprehensive
analysis of needed MTE rolling stock. Management agreed with the findings and
recommendations, including the recommendation to update the OTR container
policy.

Management of Mail                NL-AR-10-009
                                     H                9/29/2010        $29.1
Transport Equipment –
National Analysis
Report Results:
Postal Service Headquarters could provide updated, comprehensive policy,
guidance, and oversight that support current MTE operational requirements. The
Postal Service did not provide appropriate guidance, supporting systems, or
resources, or ensure that MTE requirements were monitored and enforced at
headquarters and in the field. Management generally agreed with our findings and
recommendations, including to further develop, update, and reinforce MTE
policies and procedures contained in the POM and Postal Service Handbook PO-
502.




                                                     12
Management of Equipment in Capitol Heights, MD                                                       HR-MA-14-001




                                      Appendix B: Other Impacts

          Recommendations        Impact Category                                         Amount 10  FF




                 1        Assets at Risk 11 (MTE)          FF   FF                       $1,027, 488
                1, 4      Assets at Risk (MPE)                                              284,544
               Total                                                                     $1,312,032

The value of the MTE at risk represents the current unit replacement cost of the
1,389 pieces of MTE we physically inventoried, by MTE type. The value of the MPE at
risk represents the median cost of all container loaders purchased between
January 1, 1995, and September 30, 2008, or $23,712 per loader, for each of the
12 container loaders we physically inventoried.




10
  Assets at risk amounts are based on replacement values of the equipment identified.
11
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.

                                                        13
Management of Equipment in Capitol Heights, MD                HR-MA-14-001




                          Appendix C: Management’s Comments




                                                 14
Management of Equipment in Capitol Heights, MD        HR-MA-14-001




                                                 15
Management of Equipment in Capitol Heights, MD        HR-MA-14-001




                                                 16
Management of Equipment in Capitol Heights, MD        HR-MA-14-001




                                                 17
Management of Equipment in Capitol Heights, MD        HR-MA-14-001




                                                 18
